w-

APPENDIX A
United State Court of Appeals
For the District of Columbia Circuit
No. 18-5234

September Term, 2018
l:13-cv-00008-RMC
Filed On: March 1, 2019

Darin Jones,
Appellant
v.
United States Department of Justice and
Federal Bureau of Investigation,
Appellees
BEFORE: Henderson, Srinivasan, and Millett,
Circuit Judges
ORDER
Upon consideration of the motion for summary
affirmance and the opposition thereto, it is
ORDERED that the motion for summary
affirmance be granted. The merits of the parties’
positions are so clear as to warrant summary action.
See Taxpayers Watchdog. Inc, v. Stanley. 819 F.2d
294, 297 (D.C. Cir. 1987) (per curiam). The district
court did not abuse its discretion in denying
appellant’s motion for relief under Fed. R. Civ. P.
60(b). See Smalls v. United States, 471 F.3d 186,
la

191 (D.C. Circ. 2006), With respect to the Title VII
claims that were raised in district court, appellant
failed to demonstrate either a mistake warranting
relief under Rule 60(b)(1), or “extraordinary
circumstances” meriting relief under Rule 60(b)(6).
With respect to the claims that were raised in the
appeal to the Federal Circuit, the district court lacks
jurisdiction to review decisions of the Federal
Circuit. See Smalls. 471 F.3d at 192; see also 28
U.S.C. § 1254 (providing for review by the Supreme
Court of cases in the courts of appeals).
Pursuant to D.C. Circuit Rule 36, this
disposition will not be published. The Clerk is
directed to withhold issuance of the mandate herein
until seven days after resolution of any timely
petition for rehearing or petition for hearing en banc.
See Fed. R. App. P. 41(b); D.C. Cir. Rule 41.
Per Curiam

2a

APPENDIX B
UNITED STATES DISTRICT COURT
FOR THE DISTRCIT OF COLUMBIA
DARIN JONES,
Plaintiff,
v.

Civil Action No. 13-08 (RMC)

U.S. DEPARTMENT OF JUSTICE, et
al.
Defendants.
MEMORANDUM OPINION
Before the Court is Darin Jones’ pro se Motion
to Reopen Based on Change in Law, or in the
Alternative, Based on Oversight, which, for reasons
explained below, the Court construes as a Motion for
Reconsideration Under Rule 60(a), or in the
Alternative, Under Rule 60(b) (“Mot. for
Reconsideration”) [Dkt. 38]. This Court ordered the
Government to respond to Mr. Jones’ Motion by
December 6, 2017. Apparently disinclined to do so,
the Government did not file a response. Undeterred,
Mr. Jones filed a Reply to Defendants Failure to
Respond to Judge Collyer’s 11/8/2017 Minute Order
on December 20, 2017 (Def.’s Reply), which the
Court will construe as a reply in support of Mr.
Jones Motion for Reconsideration. For the reasons
below, Mr. Jones’ motion will be denied.
3a

I. FACTS
On January 4, 2013, Mr. Jones filed a
Complaint against the Federal Bureau of
Investigation (FBI), alleging retaliation and
discrimination on the basis of gender and age in
violation of Title VII, 42 U.S.C. §2000(e) et seq. After
intervening events examined in the Court’s prior
Opinion, the Court dismissed the suit without
prejudice on July 1, 2015 because Mr. Jones had
failed to exhaust his administrative remedies with
respect to any of his claims and provided no basis to
excuse that failure. See Memorandum Opinion [Dkt.
33]. A full recapitulation of the facts is not
necessary, as they are laid out in this Court’s prior
Opinion. See id.
In the instant motion, Mr. Jones asks this
Court to consider four cases in revisiting its
dismissal of his case without prejudice vacate the
dismissal, and “issue an opinion distinguishing the
conflicts between the controlling precedents and the
July 1 decision, and remand for further proceedings.”
Mot. for Reconsideration at 4.1 Mr. Jones followed
his motion with a reply. As the government
submitted no response to the motion, this Court
considers only the arguments made in Mr. Jones’
motion and reply. For the reasons explained below,
the motion will be denied.
1 The cases cited in Mr. Jones motion are United States v. Kwai
Fun Wong, 135 S. Ct. 1625 (2015); Perry v. Merit Systems
Protection Board, 137 S. Ct. 1975 (2017); McCarthy u. Merit
Systems Protection Board, 809 F. 3d 1365 (Fed Cir. 2010); and
Jones v. Dep’t of Health and Human Services, 834 F.3d 1362
(Fed. Cir. 2016).

4a

PE=

II. LEGAL STANDARD
Mr. Jones filed a Motion to Reopen Based on
Change in Law, or in the Alternative, Based on
Oversight, which is terminology unknown to this
Court. Based on the relief requested, the Court finds
that Mr. Jones’ motion should be construed as a
Motion of Reconsideration under Rule 60(b)(6).
The Federal Rules of Civil Procedure do not
specifically address motions for reconsideration. See
Estate of Klieman v. Palestinian Auth, 82 F. Supp.
3d 237, 241-42 (D.D.C. 2015). However, the Rules
provide three pathways for those seeking
reconsideration of judicial decisions. Rule 54(b)
permits reconsideration of interlocutory judgments.
Fed R. Civ. P. 54(b). Rule 59(e) permits a party to
seek reconsideration of a final judgment within 28
days of that judgment. Fed. R. Civ. P. 59(e). Rule 60
permits a party to seek reconsideration of a final
judgment either (a) to correct a mistake arising from
an oversight or omission or (b) to seek relief from a
judgment or order due to: (1) mistake, inadvertence,
surprise, or excusable neglect; (2) newly discovered
evidence; (3) fraud, misrepresentation, or other
misconduct; (4) void judgment; (5) satisfied, released,
or discharged judgment; or (6) “any other reason
justifying relief from the operation of the judgment.”
Fed. R. Civ. P. 60(a), (b); see also Gates u. Syrian
Arab Republic, 646 F. Supp. 2d 79, 83 (D.D. C. 2009).
Rule 60(b) requires that a motion alleging excusable
neglect, newly discovered evidence, or fraud be filed
within one year of the judgment, while motions

5a

under other grounds must be filed “within
reasonable time.” Fed. R. Civ. P. 60(b).
“The granting of a Rule 60(b) motion is
discretionary, and need not be granted ‘unless the
district court finds that there is an intervening
change of controlling law, the availability of new
evidence or the need to correct a clear error or
prevent manifest injustice.’” Mitchell v. Samuels, 255
F. Supp. 3d 212, 214 (D.D. C. 2017) (quoting
Firestone v. Firestone, 76 F.3d 1205, 1208 (D.C. Cir.
19960). More specifically, the granting of motions
under Rule 60(b)(6) should be limited to
“extraordinary circumstances.” See Gonzalez v.
Crosby, 545 U.S. 524, 535 (2005) (“[0]ur cases have
required a movant seeking relief under Rule 60(b)(6)
to show ‘extraordinary circumstances’ justifying the
reopening of a final judgment.”) The D.C. Circuit
has echoed that sentiment in observing that Rule
60(b)(6) motions “should be only sparingly used,”
Good Luck Nursing Home, Inc. v. Harris, 636 F.2d
572, 577 (D.C. Cir. 1980), and are not an opportunity
for unsuccessful parties to “take a mulligan.” Kramer
v. Gates, 481 F.3d 788, 792 (D.C. Circ. 2007).
III. ANALYSIS
Mr. Jones moves this Court to reconsider its
ordering granting Defendants’ Motion to Dismiss, or
in the Alternative for Summary Judgment. See
7/1/15 Order [Dkt. 34]. Because that order
adjudicated all of Mr. Jones’ claims in this case, he is
foreclosed from relief under Rule 54(b), which
permits reconsideration and revision of orders or
decisions adjudicating fewer than all the claims at
6a

issue in a case. See Fed. R. Civ. P. 54(b). Having
filed his motion for reconsideration more than 28
days after the entry of the dismissal order, the relief
Mr. Jones seeks is also prohibited by Rule 59(2) ad
must be considered solely under Rule 60. See Fed. R.
Civ. P. 59 (e), 60. See McMillian v. District of
Columbia, 233 F.R.D. 179, 180 n. 1 (D.D.C. 2005)
(holding that motions to reconsider filed within ten
days of judgment are reviewed under Rule 59(e) and
those filed after ten days are treated under Rule
60(b)).2
Mr. Jones does not assert in his motion or
reply that a mistake, excusable neglect, newly
discovered evidence, or fraud are at issue here. Nor
does he argue that this Court’s judgment is void, has
been satisfied, released, discharge, or was based on
an earlier judgment that was reversed or vacated.
Instead, Mr. Jones bases his motion on “change in
law” or “oversight.” Mr. Jones does not move under
an established rule, but his motion suggests
arguments similar to those often raised under Rule
60(b)(6), which permits reconsideration for “other”
reasons. The Court therefore will assess his motion
for reconsideration under that Rule, in keeping with
the well-recognized principle that pro se litigants are
“allowed more latitude than litigants represented by
counsel,” which includes applying less stringent
standards to pro se pleadings than formal pleadings
drafted by lawyers. Moore v. Agency for Intern.

2 The 2009 Amendment to Rule 59(e) extended the filing
deadline from ten days to 28 days.

7a

Development, 999 F.2d 874, 876 (D.C. Cir. 1993)
(citing Haines u. Kerner, 404 U.S. 519, 520 (1972)).3
A. Change in Controlling Law
Mr. Jones argues that the four cases cited in
his motion and accompanying reply necessitate
reconsideration of this Court’s prior dismissal of the
case without prejudice. The Court interprets this as
an argument for reconsideration under Rule 60(b)(6)
based on a change in controlling law. See Firestone,
76 F.3d at 1208. Unfortunately, the cases cannot
bear the weight of Mr. Jones’ argument.
In United States v. Kwai Fun Wong, the
Supreme Court held that the time limitations
applicable to suits brought pursuant to the Federal
Tort Claims Act (FTCA), 28 U.S.C. § 2401(b), were
non-jurisdictional and were therefore subject to
equitable tolling. 135 S. Ct. 1625 (2015). This case
is inapposite because Mr. Jones’ case was neither
brought under the FTCA nor did it suffer from a
deficiency that could be cured by equitable tolling.4
Jones v. Dep’t of Health and Human Services
was a decision issued by the Federal Circuit, and is
therefore not binding on this Court. See 834 F.3d
1361 (Fed. Cir. 2016). In that case, the Federal
Circuit treated an appellant’s prematurely filed
notice of appeal from a non-final Merit Systems

3 Though Mr. Jones is, in fact, an attorney, the Court reviews
his pleadings under the more forgiving pro se standards.
4 The Supreme Court has previously held that equitable tolling
of statutory time limits is available in Title VII suits against
the United States. See Irwin v. Dep’t of Veteran Affairs, 498
U.S. 89 (1990).

8a

Protection Board (MSPB) decisions as “effectively
stayed until the underlying agency order bec[ame]
final.” Id. at 1365. In contrast, the D.C. Circuit,
which issues decisions binding on this Court, has
limited its interpretation of “judicially reviewable
action” to an action that is subject to judicial review
as of the time the plaintiff files suit. Butler v. West,
164 F.3d 634, 639 (D.C. Cir. 1999) (addressing 5
U.S.C. § 7702(e)(1)(B)). Therefore, Jones offers no
support for Mr. Jones’ assertion of a change in
controlling law.
Similarly, McCarthy u. Merit Systems
Protection Board is a Federal Circuit case, which
does not provide this Court with a change in
controlling law to consider. See 809 F.3d 1365 (Fed.
Cir. 2016).
Mr. Jones also asserts that his case was
“unlawfully bifurcated between the Federal Circuit
and the district court,” Def.’s Reply at 2, in a
contravention of the Supreme Court’s later decision
in Perry v. Merit Systems Protection Board. See 137
S. Ct. 1975 (2017). In Perry, the Supreme Court held
that judicial review of a mixed-case MSPB dismissal
based on jurisdiction lies with the district court.
Perry is mandatory authority, but it has no bearing
on the dismissal of Mr. Jones’ case for failure to
exhaust his administrative remedies.5 Mr. Jones
chose to file suit under Title VII in this Court on
January 4, 2013, alleging discrimination on the basis
of gender and age. Compl. ^19-31. His claims were
dismissed because they were not filed according to
5 It should be noted that Mr. Jones has provided no basis, and
this Court finds none, to construe the Perry holding as applying
retroactively.

9a

the simple rule: “file in the time allotted, and neither
before nor after.” Hooker-Robinson v. Rice, No. OS321, 2006 WL 2130652, at *3-4 (D.D.C. July 27,
2006). Mr. Jones’ argument that his claims were
“unlawfully bifurcated” fails. The fact that the
district court may have been a proper forum for all of
his claims does not change the fact that Mr. Jones
was required to exhaust the administrative remedies
available before the MSPB before filing a complaint
in federal court. See Williams u. Munoz, 106 F.
Supp. 2d 40, 43 (D.D. C. 2000) (“A plaintiff is
required to exhaust [his] claims in the forum he has
chosen before filing a civil action.”). Because Mr.
Jones failed to do so, his case was dismissed.
None of the four decisions cited by Mr. Jones
provides a change in controlling law applicable to his
case that would support a motion for reconsideration
under Rule 60(b)(6).
B. Federal Circuit
Mr. Jones alleges that the Federal Circuit’s
decision affirming MSPB’s dismissal of his MSPB
appeal for lack of jurisdiction is contrary to law and
should be “reopened.” The Supreme Court denied
Mr. Jones’ petition for a writ of certiorari on appeal
from the Federal Circuit. Jones v. MSPB, No. 20161711 (Fed. Cir. January 10, 2017), cert, denied
(October 2, 2017). Mr. Jones argues that this Court
should “reopen the Federal Circuit’s [...] ruling,”,
due to several alleged errors in that holding. Mot.
for Reconsideration at 4-14. This Court does not sit
to review decisions of the Federal Circuit; there are

10a

F

no grounds for this Court to reconsider its dismissal
of Mr. Jones’ case without prejudice.
IV. CONCLUSION
For the reasons articulated above, the Court
will deny Mr. Jones’ Motion for Reconsideration
[Dkt. 38]. A memorializing Order accompanies this
Memorandum Opinion.
Date: May 25, 2018
/s/
ROSEMARY M. COLLYER
United States District Judge

11a

p

UNITED STATES DISTRICT COURT
FOR THE DISTRCIT OF COLUMBIA
DARIN JONES,
Plaintiff,
v.

Civil Action No. 13-08 (RMC)

U.S. DEPARTMENT OF JUSTICE, et
al.,
Defendants.
ORDER
For the reasons stated in the Memorandum
Opinion issued simultaneously with this Order, it is
hereby
ORDERED that Plaintiffs Motion for
Reconsideration [Dkt. 38] is DENIED.
This is a final appealable order. See Fed. R.
App. P. 4(a).
Date: May 25, 2018
Is/

ROSEMARY M. COLLYER
United States District Judge

12a

APPENDIX C
United States Court of Appeals
FOR THE DISTRICT OF COLUMBIA CIRCUIT
No. 15-5246

September Term, 2016
FILED ON: JULY 14, 2017

DARIN JONES,
APPELLANT
v.
UNITED STATES DEPARTMENT OF JUSTICE
AND FEDERAL BUREAU OF INVESTIGATION,
APPELLEES
Appeal from the United States District Court for the
District of Columbia
(No. l:13-cv-00008)
Before: ROGERS, BROWN, and GRIFFITH, Circuit
Judges.
JUDGMENT
This appeal was considered on the record from
the district court and was briefed and fully argued
by the parties. The Court has accorded the issues
full consideration and has determined that they do
not warrant a published opinion. See FED. R. APP.
P. 36; D.C. CIR. R. 36(d). It is
ORDERED AND ADJUDGED that the
judgment of the district court be affirmed. It is well13a

established that a federal employee must exhaust
his administrative remedies before filing suit in a
federal court. See Butler v. West, 164 F.3d 634, 638
(D.C. Cir. 1999). This Court has recently applied
federal exhaustion requirements to the statute at
issue in this case—5 U.S.C. § 7702(e)(1)(B)—in
Morris v. McCarthy and held that an appeal must be
actively pending before the Merit Systems Protection
Board (“MSPB”) for 120 days before a litigant may
file suit in federal court. 825 F.3d 658, 667 (D.C. Cir.
2016). Here, Jones appealed his termination by the
FBI to the MSPB on September 20, 2012 and filed a
complaint in the district court on January 4, 2013.
Thus, Jones filed his complaint two weeks earlier
than the 120-day period required by law. Because
Jones did not wait the 120 days required by the
statute and this Court’s precedent, his suit was
untimely, and the district court correctly dismissed
the case for failing to exhaust administrative
remedies.
Also, the fact that the MSPB had issued an
initial decision prior to Jones filing his suit in the
district court has no bearing on this case because
only a final MSPB decision constitutes judicially
reviewable action under 5 U.S.C. § 7702(e). Butler,
164 F.3d at 640-42. Under the MSPB’s regulations,
an initial decision “becomes a final decision if neither
party, nor the MSPB on its own motion, seeks
further review within [35] days.” Id. at 638-39.
Here, the MSPB released its initial opinion on
December 6, 2012. Therefore, its initial decision was
scheduled to automatically become final on January
10, 2013. However, instead of waiting until January
14a

10, Jones filed his suit on January 4, six days before
the Board’s decision became final. Because Jones
seeks review on a decision that was not final, his
claim is not judicially re viewable.
As to Jones’s argument that his suit ripened
for review once it was pending before the district
court after the 120-day period required by statute,
this Court has already rejected similar arguments
that a failure to exhaust may somehow be cured. See
Murthy u. Vilsack, 609 F.3d 460, 465 (D.C. Cir. 2010)
(holding “the filing of an amended complaint after
the 180-day period [required by statute] expired
cannot cure the failure to exhaust”). Therefore, Jones
filed his suit in the district court prematurely, and
the district court’s dismissal was appropriate.
Finally^ Jones has failed to show he is entitled
to equitable avoidance of the FBI’s exhaustion
defense. While this Court does recognize that
plaintiffs are entitled to an opportunity to “plead[|
and prov[e] facts supporting equitable avoidance” of
affirmative defenses like failure to exhaust
administrative remedies, Bowden v. United States,
106 F.3d 433, 437 (D.C. Cir. 1997), Jones has failed
to show he is entitled to such avoidance. The Board’s
initial decision clearly stated it would “become final
on January 10. 2013. unless a petition for review
[was] filed by that date.” GA 31. Below this notice,
the Board provided detailed instructions regarding
the process for seeking further review from the
Board or judicial review of the Board’s decision.
Because Jones was put on notice about the proper
procedures for appealing the Board’s decision, he has
15a

w

not met his “burden of pleading and proving facts
supporting equitable avoidance.” Bowden, 106 F.3d
at 437. Nor has he shown that the FBI waived its
right to raise exhaustion as a defense. See id. at
438-39; Brown v. Marsh, 111 F.2d 8, 15-16, 18 (D.C.
Cir. 1985). The FBI raised exhaustion as a defense in
its Answer and not moving immediately to dismiss
the complaint falls short of precluding the FBI from
now raising the exhaustion doctrine, see id. at 15.
Pursuant to D.C. Circuit Rule 36, this
disposition will not be published. The Clerk is
directed to withhold issuance of the mandate herein
until seven days after disposition of any timely
petition for rehearing or petition for hearing en banc.
See FED. R. APP. P. 41(b); D.C. CIR. RULE 41.
Per Curiam
FOR THE COURT:
Mark J. Langer, Clerk
BY:

Is/
Ken Meadows
Deputy Clerk

16a

APPENDIX D
UNITED STATES DISTRICT COURT
FOR THE DISTRCIT OF COLUMBIA
DARIN JONES,
Plaintiff,
v.

Civil Action No. 13-08 (RMC)

U.S. DEPARTMENT OF JUSTICE, et
al.,
Defendants.
OPINION
Plaintiff Darin Jones, who presently proceeds
pro se, brings this action against Defendants U.S.
Department of Justice (DOJ) and the Federal
Bureau of Investigation (FBI), seeking damages
pursuant to Title VII of the Civil Rights Act of 1964,
42 U.S.C. §§ 2000e et seq., for retaliation and gender
and age discrimination. Before the Court is
Defendants’ Motion to Dismiss or in the Alternative
for Summary Judgment, Mr. Jones’ Motion to
Amend Complaint to Add Race Discrimination, Mr.
Jones’ Surreply, which the Court construes as a
Motion for Default Judgment, and Defendants’
Motion to Strike Mr. Jones’ Surreply. For the
reasons below, the motion to dismiss or for summary
judgment will be granted, and the motion to strike
will be denied. Mr. Jones’ motions will be denied.
17a

p=

I. FACTS
Starting in August 2011, Mr. Jones was
employed by FBI as a Supervisory Contract
Specialist and was assigned to work at DOJ. Comp.
[Dkt. 1] tH; Answer [Dkt. 3] If 11. Mr. Jones
believed that he was promised a financial incentivea pay-match based on a private sector job offer- to
come work for FBI. See Mot. to Dismiss or For
Summ. J. [Dkt. 21] (Defs. Mot.) Report of Counseling
[Dkt. 21-1] at 3. After he had already begun working
for FBI, however, Mr. Jones was informed that he
was not entitled to matching pay. Id. In July 2012,
Mr. Jones complained of race, sex, and age
discrimination based on the denial of matching pay
and retaliation for pursuing the matching pay issue.
Id. at 2-3. Mr. Jones filed a formal equal
employment opportunity (EEO) complaint on August
15, 2012, alleging race, sex, and age discrimination
and reprisal due to FBI’s failure to match pay and
FBI’s denial of his application for student-loan
repayment assistance. See Defs. Mot., Formal EEO
Complaint [Dkt. 21-2] at 1-2. By letter dated August
22, 2012, one week before the end of Mr. Jones’
probationary period, DOJ notified Mr. Jones that his
employment would be terminated effective August
24, 2012 for failure to meet FBI suitability
standards. Id., Termination Letter [Dkt. 21-3].
Apparently, the letter dated August 22, 2015 was
given to Mr. Jones on August 24, 2015, his
termination date. See Opp. To Def. Statement of
Facts [Dkt. 27-1] at 2.1
1 Mr. Jones states that he “had no knowledge whatsoever of the
existence of this [termination] letter until it was given to him

18a

Mr. Jones appealed his termination to the
Merit Systems Protection Board (MSPB) on
September 20, 2012, alleging that he was terminated
“because of either: (1) the filing of an EEO
Complaint in August 2012; or (2) disclosures that
were protected under whistleblower protection.”
Defs, Mot., MSPB Form 185 [Dkt. 21-4] at 3 (MSPB
Appeal). Before MSPB, Mr. Jones argued that (1) he
was entitled to appeal his termination to MSPB
because his prior military service qualified him as
preference-eligible and (2) his prior federal service
with another agency meant that he was not a
probationary employee and, therefore, had appeal
rights as a regular employee. See Compl., Ex. 1
(MSPB Initial Decision) at 2.
MSPB dismissed Mr. Jones’ appeal for lack of
jurisdiction on December 6, 2012. Id. at 1,2
(“Employees of the FBI who are not preferenceeligible do not have the right to appeal adverse
actions to the Board.”). MSPB concluded that the
dates of Mr. Jones’ service in the Navy did not
qualify him as preference- eligible to appeal his
discharge to MSPB. Id. at 4. MSPB’s Initial
Decision specified that it was an “initial decision”
that would “become final on January 10. 2013.
unless a petition for review is filed by that date.” Id.
at 4 (emphasis in original). Further, MSPB’s Initial
Decision clearly directed that Mr. Jones could ask for
Board review of the Initial Decision by filing a
petition for review or could seek judicial review of
the Board’s Final Decision by filing a petition with
on August 24, 2012.” Opp. to Def. Statement of Facts at 2. The
date on which Mr. Jones received the termination letter is not
material to this Opinion.

19a

the United States Court of Appeals for the Federal
Circuit. Id. at 5, 8.
In response to Mr. Jones’ August 2012 Formal
EEO Complaint, FBI’s Office of Equal Employment
Opportunity Affairs (FBI OEEOA) notified Mr. Jones
by letter dated December 7, 2012 that it would
investigate his race, sex, and age claims regarding
the denial of matching pay and his race, sex, age,
and retaliation claims regarding the rejection of his
student loan repayment application. See Defs. Mot.,
OEEOA Letter [Dkt. 21-5] at 1-2. FBI OEEOA
rejected Mr. Jones’ retaliation claim based on the
failure to match private-sector pay because he had
alleged he was retaliated against due to comments
made in a January 2012 meeting with supervisors
and others, which does not constitute EEO-protected
activity. Id. By letter to FBI OEEOA dated
December 21, 2012, Mr. Jones’ counsel tried to add a
claim for discriminatory discharge to his Formal
EEO Complaint. See, id. Jones Ltr. [Dkt. 21-6] at 1.
Mr. Jones filed this lawsuit on January 4,
2013, alleging retaliation and discrimination on the
basis of gender and age in violation of Title VII.
Compl. Tit 19-31.2 Defendants filed an Answer to the
Complaint on April 18, 2013 and asserted the
affirmative defenses that Mr. Jones failed to state a
claim upon which relief may be granted and that he
had failed to exhaust his administrative remedies.

2 At that time and until March 31, 2014, Mr. Jones was
represented by counsel. He is currently proceeding pro se. See
Mot. to Withdraw as Att’y [Dkt. 12]. Mr. Jones is licensed to
practice law in both Florida and the District of Columbia, but
states that he has not practiced law since being admitted to
either Bar. See Mot. to Amend [Dkt. 13] at 1 n.l.

20a

■wa

See Answer at 1. The Court held an initial
scheduling conference on May 5, 2013 and set a factdiscovery deadline of December 5, 2013, which was
extended until December 31, 2014.3 See Scheduling
Order [Dkt. 6]; Minute Order 10/24/13; Minute
Order 6/10/14; Minute Order 9/29/14.
On October 28, 2013, MSPB affirmed its
Initial Decision dismissing Mr. Jones’ appeal for lack
of jurisdiction. See Opp’n at 3 n. 3. Mr. Jones
appealed MSPB’s decision to the U.S. Court of
Appeals for the Federal Circuit, which affirmed
MSPB on March 18, 2015. See Jones v. MSPB, No.
2014-3050 (Fed. Cir. March 18, 2015), reh’g denied
(April 8, 2015).
By letter dated April 4, 2013, FBI OEEOA
advised Mr. Jones that it could not amend his
Formal EEO Complaint to add a claim based on his
discharge because he had already filed suit here
alleging the same claim. See Defs. Mot., OEEOA
Ltr. [Dkt. 21-7] at 1.
On April 15, 2014, Mr. Jones moved to amend
his Complaint to add a claim for “termination based
on age.” See Mot. to Amend [Dkt. 13] at 2.
Defendants did not oppose and the Court granted
the motion. See Minute Order 5/9/14.
Defendants filed their motion to dismiss or for
summary judgment on October 10, 2014. See Defs.
Mot. In addition, currently pending before the Court

3 On October 8, 2013, the case was temporarily stayed due to
the unanticipated length of the lapse of government
appropriations. See Minute Order 10/2/13; Minute Order
10/8/13. Discovery has been stayed since October 22, 2014
pending briefing and resolution of Defendants’ motion to
dismiss or for summary judgment. See Order [Dkt. 25].

21a

are Mr. Jones’ motion to amend his complaint to add
a claim for race discrimination, Mr. Jones’ two
motions to compel production of documents, Mr.
Jones’ Surreply, which the Court construes as a
Motion for Default Judgment, and Defendants’
Motion to Strike Mr. Jones’ Surreply. See Mot. to
Amend Complaint [Dkt. 16]; Mots. To Compel [Dkts.
17 and 19]; Response to Defendants’ Reply [Dkt. 29]
(Default Mot.); Mot. to Strike [Dkt. 30].
II. LEGAL STANDARD
Defendants styled their motion as a Motion to
Dismiss or for Summary Judgment. Because
Defendants had already filed an Answer to Mr.
Jones’ Complaint, see Ans. [Dkt. 3], a motion to
dismiss under Fed. R. Civ. P. 12(b)(6) is untimely.
See Fed. R. Cv. P. 12(b) (“A motion asserting any of
these defenses must be made before pleading if a
responsive pleading is allowed.”). “[C]ourts routinely
treat motions to dismiss that are filed after a
responsive pleading has been made as a motion for
judgment on the pleadings.” Langley v. Napolitano,
677 F. Supp. 2d 261, 263 (D.D. C. 2010).
However, the Court finds that Defendants’
motion should be construed as a motion for summary
judgment. FBI attached various exhibits, including
affidavits, to its motion, some of which are not
referenced in the Complaint and are therefore
outside the scope of the pleadings. The Court has
considered these materials in ruling on Defendants’
motion.
Under Federal Rule of Civil Procedure 56,
summary judgment shall be granted “if the movant
22a

shows that there is no genuine dispute as to any
material fact and the movant is entitled to judgment
as a matter of law.” Fed. R. Civ. P. 56(a); accord
Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 247
(1986). On summary judgment, the burden on a
moving party who does not bear the ultimate burden
of proof may be satisfied by making a showing that
there is an absence of evidence to support the
nonmoving party’s case. Celotex Corp. v. Catrett, 477
U.S. 317, 325 (1986). In ruling on a motion for
summary judgment, a district court must draw all
justifiable inferences in the nonmoving party’s favor.
Anderson, All U.S. at 255. A nonmoving party,
however, must establish more than “the mere
existence of a scintilla of evidence” in support of its
position. Id. at 252. In addition, the nonmoving
party may not rely solely on allegations for
conclusory statements. Greene v. Dalton, 164 F.3d
671, 675 (D.C. Cir. 1999).
III. ANALYSIS
The first problem in this case is that Mr.
Jones admittedly filed his complaint before he had a
final MSPB decision. The second problem is that
Mr. Jones never raised his claims of discrimination
due to race, age, or gender to MSPB before bringing
them to this Court. Therefore, Mr. Jones has not
exhausted his administrative remedies with respect
to any of his claims and the Court will dismiss his
Complaint without prejudice. Because Defendants
timely answered the Complaint, the Court will deny
Mrs. Jones’ motion for default judgment.

23a

A. Mr. Jones Failed to Exhaust His
Administrative Remedies
Before bringing suit under Title VII in federal
court, a federal employee must exhaust his
administrative remedies. See Butler v. West, 164
F.3d 634, 638 (D.C. Cir. 1999). “Exhaustion is
required in order to give federal agencies an
opportunity to handle matters internally whenever
possible and to ensure that the federal courts are
burdened only when reasonably necessary.” Brown
v. Marsh, 111 F. 2d 8, 14 (D.C. Cir. 1985).
Failure to exhaust is not a jurisdictional bar
to bringing suit under Title VII.4 See
Bowden v. United States, 106 F. 3d 433, 437 (D.C.
Cir. 1997); Brown v. Marsh, 111 F. 2d 8, 14 (D.C.
Cir. 1985) (“Exhaustion under Title VII, like other
procedural devices, should never be allowed to
become so formidable a demand that it obscures the
clear congressional purpose of‘rooting out...every
vestige of employment discrimination within the
federal government.”) (internal citation omitted).
Rather, “untimely exhaustion of administrative
remedies is an affirmative defense,” which “the
defendant bears the burden of pleading and
proving.” Bowden, 106 F.3d at 437; Proctor u.
4 Defendants cite Hooker-Robinson v. Rice, 2006 WL 2130652
(D.D.C. 2006) and Doe v. U.S. Dep’t of Justice, 660 F. Supp. 2d
31 (D.D.C. 2009) for support of their argument. Both cases
treated failure to exhaust as a jurisdictional defect. The recent
trend in this district is to treat failure to exhaust under Title
VII as a failure to state a claim rather than as a jurisdictional
defect. See, e.g., Williams-Jones v. Lahood, 656 F. Supp. 2d 63,
66 (D.D.C. 2009); Hicklin v. McDonald, 2015 WL 3544449, at
*2 (D.D.C. June 8, 2015); Proctor, 2014 WL 6676232, at *11.

24a

F

District of Columbia, 2014 WL 6676232, at *11 (D.D.
C. Nov. 25, 2014). If a defendant meets that burden,
“the plaintiff then bears the burden of pleading and
providing facts supporting equitable avoidance of the
defense.” Bowden, 106 F.3d at 437; Proctor, 2014
WL 6676232, at *11. Courts may excuse failure to
exhaust administrative remedies under the
equitable doctrines of waiter, estoppel or tolling. See
Bowden, 106 F.3d at 437.
A claimant must navigate complex
requirements for processing employment
discrimination claims. Generally, an employee must
seek relief from the Equal Employment Opportunity
department of his employing agency, as detailed in
Section 717(c) of the Civil Right Act of 1964, 42
U.S.C. § 2000e-16(c). In certain cases, a federal
employee affected by an adverse employment action,
such as discharge, may instead bring any related
Title VII claims in connection with an appeal of the
adverse employment action to MSPB. See 5 U.S.C. §
7512;5 5 U.S.C. § 7513(d); Chappell v. Chao, 388
F.3d 1373, 1375 (11th Cir. 2004) (“Although the
MSPB does not have jurisdiction over discrimination

5 MSPB only has jurisdiction over certain adverse employment
actions affecting federal employees, such as discharges,
suspensions, and demotions. See 5 U.S.C. § 7512.
Probationary employees are not afforded the full rights that
tenured employees have to appeal adverse employment actions
to MSPB. See, e.g., id. § 4303(e); U.S. Dept, of Justice, I.N.S. u.
Fed. Labor Relations Auth, 907 F.2d 724, 728 (D.C. Cir. 1983)
(“The substantial protections that Congress made available
only to tenured employees indicate that Congress recognized
and approved of the inextricable link between the effective
operation of the probationary period and the agency’s right to
summary termination.”).

25a

claims that are not related to adverse actions, it can
entertain appeals in ‘mixed cases.’”). MSPB is an
independent, quasi-judicial federal administrative
agency that was established by the Civil Service
Reform Act of 1978 (CSRA), 5 U.S.C. § 1101 et seq.,
to review civil service decisions. See 5 U.S.C. § 7701.
Supplemented by EEOC and MSPB regulations, the
CSRA sets forth the statutory framework for
“addressing the procedural path of a mixed case- an
adverse personnel action subject to appeal to the
MSPB coupled with a claim that the action was motivated by discrimination.” Butler, 164 F. 3d at
637-38 (citing 5 U.S.C. § 7702). A plaintiff may file a
mixed-case complaint with his agency’s EEO office or
with MSPB, but not both. See 29 CF.R. §
1614.302(b). “Whichever is filed first shall be
considered an election to proceed in that forum,” id.,
and a plaintiff must then exhaust his remedies in
that forum. See Tolbert v. United States, 916 F.2d
245, 248 (5th Cir. 1990) (holding that a federal
employee must exhaust chosen avenue of
administrative relief prior to bringing a Title VII
action); Williams v. Munoz, 106 F. Supp. 2d 40, 43
(D.D.C. 2000) (“A plaintiff is required to exhaust
[his] claims in the forum []he has chosen before filing
a civil action.”).
Where, as here, a plaintiff first elects to file an
appeal to MSPB, an Administrative Judge is
assigned to the case and “take evidence an
eventually makes findings of fact and conclusions of
law.” Butler, 164 F.3d at 638. Within 120 days of
the filing of the mixed-case appeal, the Board is to
“decide both the issue of discrimination and the
appealable action.” 5 U.S.C. § 7702(a)(1). An initial
26a

r

decision of an Administrative Judge “becomes a final
decision if neither party, nor the MSPB on its own
motion, seeks further review within thirty-five days.”
Butler, 164 F.3d at 638; 5 C.F.R. § 1201.113.
“However, both the complainant and the agency can
petition the full Board to review an initial decision.
Should the Board deny the petition for review, the
initial decision becomes final, see 5 C.F.R. §
1201.113(b); if the Board grants the petition, its
decision is final when issued. See 5 C.F.R. §
1201.113(c).” Butler, 164 F.3d at 639. A plaintiff
may file a civil suit in district court within thirty
days after a final MSPB decision. See 5 U.S.C. §
7703(b). Alternately, “if the MSPB fails to render a
judicially reviewable decision within 120 days from
the filing of a mixed case appeal, the aggrieved party
can pursue [his] claim in federal district court.”
Butler, 164 F.3d at 639; 5 U.S.C. § 7702(e)(1)(B).
1. Retaliation Claim
Mr. Jones has not exhausted his
administrative remedies with regard to his
, retaliation claim because there has been no final
MSPB decision on this claim. Mr. Jones sues here
on the basis of MSPB’s Initial Decision. The D.C.
Circuit has explained the difference between an
MSPB initial decision and an MSPB final decision:
While an initial decision can convert to a final
decision with either the passage of thirty-five
days or the denial of all outstanding

27a

petitions for review, it can also be overturned
or modified by the Board, in which case it will
never be reviewable by the courts in its
Initial form. Furthermore, throughout the
thirty-five-day period following the issuance of
an initial decision, the parties can each
petition for another round of review from the
Board. Once a decision becomes final,
however, a losing party’s only recourse lies in
the courts.
Butler, 164 F.3d at 640 (emphasis added). Plainly,
only a final MSPB decision is judicially reviewable.
See also 5 CF.R. § 1201.113 (“Administrative
remedies are exhausted when a decision becomes
final in accordance with this section.”). MSPB’s
Initial Decision, rendered on December 6, 2012,
would only have become a final decision subject to
judicial review on January 10, 2013 if neither party,
nor MSPB, sought further review by that date-6
days after Mr. Jones filed his complaint here on
January 4, 2013. See Butler, 164 F.3d at 638; 5
C.F.R. § 1201.113. Because MSPB’s Initial Decision
had not converted to a final decision at the time he
filed suit here, Mr. Jones did not exhaust his
administrative remedies with respect to his
retaliation claim.
Although 5 U.S.C. § 7702(e)(1)(B) may provide
an alternative avenue to district court, Mr. Jones
cannot avail himself of it. Under 5 U.S.C. §
7702(e)(1)(B), a claimant can seek judicial review if,
“after filing a missed case appeal with the MSPB,
120 days elapse without final MSPB action.” Butler,
164 F.3d at 643 (emphasis added). Mr. Jones filed
28a

his mixed-case appeal with MSPB on September 20,
2012. See MSPB Appeal at 2. Therefore, absent a
final MSPB decision, Mr. Jones would have been
entitled to file suit here on January 18, 2013, but he
filed his Complaint 14 days earlier. See id. Mr.
Jones has not abided by the fundamental directive
governing exhaustion of administrative remedies:
“The rule is simple: file in the time allotted, and
neither before nor after.” Tolbert, 916 F.2d at 249.
Mr. Jones concedes that he has filed here
without a final MSPB decision. See Opp’n [Dkt. 27]
at 4 n.4 (“Plaintiffs Complaint was filed six(6) days
early” and “Plaintiff admits this him Complaint
[Dkt. 1] was filed by his former attorney on January
4, 2013, seventeen days before January 21, 2013.”).6
Because Mr. Jones failed to exhaust administrative
remedies, his retaliation claim will be dismissed.
2. Discrimination Claims
Defendants argue that Mr. Jones also failed to
exhaust administrative remedies with respect to his
claims of discriminatory discharge on the bases of
gender, age, or race because he never raised them in
front of MSPB. For that reason, Defendants argue
that Mr. Jones’ Motion to Amend Complaint to add a
claim for discharge based on race should be denied
as futile and his claims for gender and age
discrimination should be dismissed. See Defs. Mot.
at 16. The Court agrees.

6 The Court calculates that January 18, 2013 and not January
21, 2013 is 120 days after Mr. Jones filed his MSPB appeal on
September 20, 2012.

29a

r

Mr. Jones appealed his discharge from FBI to
MSPB on September 20, 2012, arguing that he was
fired “because of either: (1) the filing of an EEO
Complaint in August 2012 [i.e., retaliation];7 or (2)
disclosures that were protected under whistleblower
protection.” MSPB Appeal at 3. Mr. Jones chose
MSPB over the EEO process for all discrimination
claims behind his discharge. See 29 C.F.R. §
1614.302(b) (“Whichever is filed first shall be
considered an election to proceed in that forum”);
Tolbert, 916 F.2d at 248 (holding that a federal
employee must exhaust chosen avenue of
administrative relief prior to bringing a Title VII
action); Williams, 106 F. Supp. 2d at 43. Mr. Jones
then attempted to amend his Formal EEO
Complaint to add a claim for discriminatory
discharge by letter dated December 21, 2012, three
months after he filed his MSPB appeal. See Jones
Ltr. at l.8 However, because he elected to appeal his
termination to MSPB first, Mr. Jones elected to
purse all of his claims for wrongful termination in
that forum.
Mr. Jones’ MSPB Appeal included only his
allegation of retaliatory discharge for protected EEO
activity. See generally MSPB Appeal. His current
argument that he “would have added his wrongful
termination claims of discrimination based on
7 The “filing of an EEO Complaint” is protected EEO activity
for which retaliation is unlawful. See 42 U.S.C. § 2000e-3(a).
8 Mr. Jones’ Formal EEO complaint, filed on August 15, 2012prior to his discharge—alleged race, sex, age and reprisal
discrimination arising from the denial of matching pay and
rejection of his student loan repayment application. See
Formal EEO Complaint at 1-2. None of these claims is a
subject of the instant suit.

30a

gender, race, and age” to his MSPB appeal is
unavailing. See Opp’n at 5 (emphasis added). The
rules for exhaustion are not expressed in the
conditional. Mr. Jones cannot avoid the fact that he
failed to raise any claims of gender, race, and age
discrimination in the MSPB Appeal. Accordingly,
the Court will dismiss his claims for gender and age
discrimination and will deny his motion to amend
his Complaint to add a claim of race discrimination
as futile.9
B. Mr. Jones’ Failure to Exhaust
Administrative Remedies is Not
Excused
Despite admitting that he filed suit here too
early, Mr. Jones argues that Defendants have failed
to demonstrate that his premature filing has
“prejudiced their defense in any manner or caused
an undue burden.” Opp’n at 4. He maintains that
“the conduct of the parties for twenty-two months
[between the filing of the Complaint on January 4,
2013 and the filing of Defendants’ motion for
summary judgment on October 10, 2014]
demonstrates a properly filed Complaint where the
administrative remedies were exhausted.” Id. at 5.
Prejudice is not an element of proving failure to
exhaust administrative remedies. The Court
9 “[F]utility of amendment” is a reason to deny leave to file an
amended complaint. Forman v. Davis, 371 U.S. 178, 182
(1962). An amendment is futile if it “could not withstand a
motion to dismiss.” Pietsch v. McKissack & McKissack, 677 F.
Supp. 2d 325, 328 (D.D. C. 2010). Since Mr. Jones did not
exhaust his race discrimination claim before MSPB, his
proposed amendment would not survive a motion to dismiss.

31a

p

construes Mr. Jones’ argument as a request that the
Court use its equitable discretion to excuse the
requirement of administrative exhaustion.
The Court recognizes that the parties have
expended resources litigating this suit, as evidenced
by the fact that they have engaged in discovery for
over 15 months--from June 5, 2013 until October 22,
2014, excluding a temporary stay during the lapse of
government appropriations in October 2013. See
Minute Order 10/2/13; Minute Order 10/8/13; Order
[Dkt. 25] at 2. Nonetheless, Mr. Jones presents no
reason why he filed suit here before he had obtained
a final agency decision from MSPB on his retaliation
claim and why he never presented MSPB with his
other discrimination claims. Mr. Jones’ current pro
se status provides no basis to excuse his failure to
exhaust administrative remedies because he was
represented by counsel when he filed suit. In
addition, the Court notes that Defendants raised
failure to exhaust administrative remedies as an
affirmative defense in their Answer filed on April 18,
2013, and thus did not waive their right to assert the
argument now. See Answer [Dkt. 3} at 1. Mr. Jones
has not met his “burden of pleading and proving
facts supporting equitable avoidance of the defense”
of failure to exhaust administrative remedies.
Bowden, 106 F.3d at 437; Proctor, 2014 WL 6676232,
at *11.
C. Mr. Jones’ Motion for Default
Judgment Will be Denied
Mr. Jones filed a surreply, in which he argues
that he is entitled to a default judgment because
32a

r

Defendants failed to timely respond to the January
4, 2013 Summons. See Default Mot. at 1. The Court
construes Mr. Jones’ surreply as a motion for default
judgment. Defendants move to strike the surreply.
See Mot. to Strike at 3.
Mr. Jones argues that he is entitled to default
judgment because Defendants filed an Answer on
April 18, 2013, more than 60 days after the
Summons was issued on January 4, 2013. See
Default Mot. at 1. He is incorrect. Service was
perfected on the United States Attorney’s Office on
February 21, 2013, see Mot. to Strike, Attachment 1,
thus Defendants’ Answer was timely. See Fed. R.
Civ. P. 12(a)(2) (the federal government must file a
responsive pleading within 60 days after service of
process on the United States attorney). Mr. Jones’
motion for default judgment and Defendants’ motion
to strike will be denied.
IV. CONCLUSION
For the reasons above, the Court will grant
Defendants’ Motion to Dismiss or for
Summary Judgment, Dkt. 21, and will deny Mr.
Jones’ Motion to Amend Complaint to Add Race
Discrimination, Dkt. 16. The Court will deny Mr.
Jones’ motion for default judgment, Dkt. 29, and
deny Defendants’ Motion to Strike Plaintiffs
Surreply, Dkt. 20. The Court will dismiss this case
without prejudice because Mr. Jones failed to
exhaust his administrative remedies with respect to
any of his claims. A memorializing Order
accompanies this Opinion.

33a

r
Date: July 1, 2015
/s/
ROSEMARY M. COLLYER
United States District Judge

34a

UNITED STATES DISTRICT COURT
FOR THE DISTRCIT OF COLUMBIA
DARIN JONES
Plaintiff,
v.

Civil Action No. 13-08 (RMC)

U.S. DEPARTMENT OF JUSTICE, et
al.
Defendants.
ORDER
For the reasons stated in the Opinion issudd
simultaneously with this Order, it is hereby
ORDERED that Defendants’ Motion to
Dismiss or in the Alternative for Summary
Judgment, Dkt. 21, is GRANTED; and it is
FURTHER ORDERED that Plaintiffs
Motion to Amend Complaint to Add Race
Discrimination, Dkt. 16, is DENIED; and it is
FURTHER ORDERED that Plaintiffs
Motion for Default Judgment, Dkt. 29, is DENIED;
and it is
FURTHER ORDERED that Defendants’
Motion to Strike Plaintiffs Surreply, Dkt. 30, is
DENIED; and it is
35a

\

IP-

FURTHER ORDERED that Plaintiffs
Motions to Compel, Dkts. 17 and 19, are DENIED
as moot; and it is
FURTHER ORDERED that this case is
DISMISSED WITHOUT PREJUDICE and this
case is closed.
This is a final appealable order. See Fed. R.
App. P. 4(a).
Date: July 1, 2015
/s/
ROSEMARY M. COLLYER
United States District Judge

36a

APPENDIX E
United State Court of Appeals
For the District of Columbia Circuit
No. 18-5234

September Term, 2018
l:13-cv-00008-RMC
Filed On: July 10, 2019

Darin Jones,
Appellant
v.
United States Department of Justice and
Federal Bureau of Investigation,
Appellees
BEFORE: Henderson, Srinivasan, and Millett,
Circuit Judges
ORDER
Upon consideration of the petition for
rehearing, which contains a request to publish the
panel’s decision, it is
ORDERED that the petition be denied. It is
FURTHER ORDERED that the request to publish
the panel’s decision be denied. See D.C. Cir. Rule
36(f) (motions to publish “are not favored and will be
granted only for compelling reasons”).

37a

Per Curiam
FOR THE COURT:
Mark J. Langer, Clerk
BY:

38a

/s/
Ken Meadows
Deputy Clerk

APPENDIX F
United State Court of Appeals
For the District of Columbia Circuit
No. 18-5234

September Term, 2018
l:13-cv-00008-RMC
Filed On: July 10, 2019

Darin Jones,
Appellant
v.
United States Department of Justice and
Federal Bureau of Investigation,
Appellees
BEFORE: Garland, Chief Judge, and Henderson,
Rogers, Tatel, Griffith, Srinivasan,
Millett, Pillard, Wilkins, Katsas, and
Rao, Circuit Judges

ORDER
Upon consideration of the petition for rehearing
en banc, and the absence of a request by any
member of the court for a vote, it is
ORDERED that the petition be denied.

Per Curiam
39a

)

ms
■\

\

J

T

'\

FOR THE COURT:
Mark J. Langer, Clerk
>

BY:
i

/s/
Ken Meadows
Deputy Clerk

J

t

/

c

40a

j

r"

APPENDIX G
United State Court of Appeals
For the District of Columbia Circuit

No. 15-5246

September Term, 2017
l:13-cv-00008-RMC
Filed On: September 12, 2017

Darin Jones,
Appellant
v.
United States Department of Justice and
Federal Bureau of Investigation,
Appellees
BEFORE: Rogers, Brown*, and Griffith,
Circuit Judges
ORDER
Upon consideration of appellant’s petition for
panel rehearing filed on August 27, 2017, it is
ORDERED that the petition be denied.
Per Curiam

* Circuit Judge Brown was a member of the panel but retired
prior to disposition of the petition for panel rehearing.

41a

m

FOR THE COURT:
Mark J. Langer, Clerk
BY:

42a

/s/
Ken Meadows
Deputy Clerk

APPENDIX H
United State Court of Appeals
For the District of Columbia Circuit

No. 15-5246

September Term, 2017
l:13-cv-00008-RMC
Filed On: September 12, 2017

Darin Jones,
Appellant
v.
United States Department of Justice and
Federal Bureau of Investigation,
Appellees
BEFORE: Garland, Chief Judge; Henderson,
Rogers, Brown*, Tatel, Griffith,
Kavanaugh, Srinivasan, Millett, Pillard,
and Wilkins, Circuit Judges
ORDER
Upon consideration of the petition for rehearing
en banc, and the absence of a request by any
member of the court for a vote, it is
ORDERED that the petition be denied.

* Circuit Judge Brown was a member of the en banc court but
retired prior to disposition of the petition for rehearing en banc.

43a

Per Curiam
FOR THE COURT:
Mark J. Langer, Clerk
BY:

44a

/s/
Ken Meadows
Deputy Clerk

p

APPENDIX I
Supreme Court of the United States
Office of the Clerk
Washington, DC 20543-0001
January 11, 2016
Mr. Darin A. Jones
5117 Dudley Lane
Apt. 303
Bethesda, MD 20814
Re: Darin A. Jones
v. Merit Systems Protection Board
No. 15-670
Dear Mr. Jones:
The Court today entered the following order in
the above-entitled case:
The petition for a writ of certiorari is denied.

Sincerely,

Scott S. Harris, Clerk

45a

F*

APPENDIX J
Supreme Court of the United States
Office of the Clerk
Washington, DC 20543-0001
October 2, 2017
Mr. Darin A. Jones
5117 Dudley Lane
Apt. 303,
Bethesda, MD 20814
Re: Darin A. Jones
v. Merit Systems Protection Board
No. 16-1471
Dear Mr. Jones:
The Court today entered the following order in
the above-entitled case:
The petition for a writ of certiorari is denied.

Sincerely,

Scott S. Harris, Clerk

46a

APPENDIX K
5 U.S.C. § 7702(e)(1)(B) provides:
(e)

(1) Notwithstanding any other provision of law, if at
any time after—
(A) ... ;
(B) the 120th day following the filing of an appeal
with the Board under subsection (a)(1) of this
section, there is no judicially reviewable action
(unless such action is not as the result of the filing of
a petition by the employee under subsection (b)(1) of
this section); or
(C) ... ;
an employee shall be entitled to file a civil
action to the same extent and in the same
manner as provided in section 717(c) of the
Civil Rights Act of 1964 (42 U.S.C. 2000e—
16(c)), section 15(c) of the Age Discrimination
in Employment Act of 1967 (29 U.S.C.
633a(c)), or section 16(b) of the Fair Labor
Standards Act of 1938 (29 U.S.C. 216(b)).

47a

